                                    SOCIAL SECURITY
MEMORANDUM

Date:   June 18, 2002                                                       Refer To:

To:     Beatrice M. Disman
        Regional Commissioner

From:   Inspector General

Subject: Financial-Related Audit of A. Holly Patterson Extended Care Facility – A Representative
        Payee for the Social Security Administration (A-02-02-12034)


        Attached is a copy of our final report. Our objectives were to determine whether the
        A. Holly Patterson Extended Care Facility (1) had effective safeguards over the receipt and
        disbursement of Social Security benefits and (2) ensured Social Security benefits were
        used and accounted for in accordance with the Social Security Administration’s policies
        and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report, please
        call me or have your staff contact Steven L. Schaeffer, Assistant Inspector General for
        Audit, at (410) 965-9700.




                                                         James G. Huse, Jr.

        Attachment

        cc
        Jo Ellen Felice
        Fritz Streckewald
        Ellen Baese
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    FINANCIAL-RELATED AUDIT OF
  A. HOLLY PATTERSON EXTENDED
CARE FACILITY – A REPRESENTATIVE
          PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION


   June 2002     A-02-02-12034



  AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled out
in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        Executive Summary
OBJECTIVE

Our objectives were to determine whether the A. Holly Patterson Extended Care Facility
(AHP) (1) had effective safeguards over the receipt and disbursement of Social Security
benefits and (2) ensured that Social Security benefits were used and accounted for in
accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their age or mental and/or physical impairments. Congress granted SSA the authority to
appoint representative payees (Rep Payee) to receive and manage these beneficiaries’1
payments. A Rep Payee may be an individual or an organization. SSA selects Rep
Payees for Old-Age, Survivors and Disability Insurance beneficiaries or Supplemental
Security Income (SSI) recipients when representative payments would serve the
individual’s interests.

Rep Payees are responsible for using benefits to serve the best interests of the beneficiary
or recipient. Their duties include:

•   Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•   Conserving and investing benefits not needed to meet the individual's current needs;

•   Maintaining accounting records of how the benefits are received and used;

•   Reporting events to SSA that may affect the individual's entitlement or benefit payment
    amount;

•   Reporting any changes in circumstances that would affect their performance as a Rep
    Payee; and

•   Providing SSA annual Representative Payee Reports (RPR) accounting for how
    benefits were spent and invested.

AHP (formerly A. Holly Patterson Geriatric Center) is a nonprofit, 889-bed skilled nursing
facility in Uniondale, New York. During our audit period, AHP was the Rep Payee for 313
beneficiaries who received Social Security benefits.

1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and SSI recipients. A distinction is made when we refer to SSI recipients only.


Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                                            i
RESULTS OF REVIEW

AHP generally (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for in
accordance with SSA’s policies and procedures. However, we identified several areas
where AHP could improve its performance as a Rep Payee. Specifically, in five cases,
SSI recipients were overpaid $1,890 because AHP did not report to SSA that the
recipients had exceeded SSI resource limits. Based on the results of our statistical
analysis, we estimate that SSA overpaid AHP at least $3,901 for at least 13 beneficiaries
during our audit period. Also, in three cases, AHP reported incorrect expense information
on RPRs.

CONCLUSIONS AND RECOMMENDATIONS

Generally, the Rep Payee met its responsibilities. However, we found a few areas where
AHP could improve its performance as a Rep Payee. We recommend that SSA:

•   Ensure the Rep Payee reviews all SSI cases with conserved fund balances over
    $2,000, quantifies the overpayments, and returns the overpaid funds to SSA.

•   Re-emphasize procedures with the Rep Payee for notifying SSA when events occur
    that affect the eligibility of individuals in its care.

•   Clarify procedures with the Rep Payee for preparing the RPRs.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. (See Appendix B
for SSA’s comments.)

REP PAYEE COMMENTS

In response to our draft report, the Rep Payee reported that it strengthened its procedures
and will be working with SSA to improve its performance as a Rep Payee. (See
Appendix C for the Rep Payee’s comments.)




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                          ii
                                                                           Table of Contents
                                                                                                                               Page

INTRODUCTION .....................................................................................................................1

RESULTS OF REVIEW..........................................................................................................4

   Oversight of SSA Benefits...................................................................................................4

   Excess Resources ...............................................................................................................4

   Accuracy of Rep Payee Reports ........................................................................................5

CONCLUSIONS AND RECOMMENDATIONS..................................................................6

OTHER MATTERS..................................................................................................................7

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – Rep Payee’s Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                                                       Acronyms
AHP               A. Holly Patterson Extended Care Facility

NHCC              Nassau Health Care Corporation

OASDI             Old-Age, Survivors and Disability Insurance

OIG               Office of the Inspector General

Rep Payee         Representative Payee

RPS               Representative Payee System

RPR               Representative Payee Report

SSA               Social Security Administration

SSI               Supplemental Security Income




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                                                       Introduction
OBJECTIVE

Our objectives were to determine whether the A. Holly Patterson Extended Care Facility
(AHP) (1) had effective safeguards over the receipt and disbursement of Social Security
benefits and (2) ensured that Social Security benefits were used and accounted for in
accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their age or mental and/or physical impairments. Congress granted SSA the authority to
appoint representative payees (Rep Payee) to receive and manage these beneficiaries
and recipients’ payments.1 A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries
or Supplemental Security Income (SSI) recipients when representative payments would
serve the individual’s interests.

REPRESENTATIVE PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the best interests of the beneficiary
or recipient. Their duties include:

•     Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•     Conserving and investing benefits not needed to meet the individual's current needs;

•     Maintaining accounting records of how the benefits are received and used;

•     Reporting events to SSA that may affect the individual's entitlement or benefit payment
      amount;

•     Reporting any changes in circumstances that would affect their performance as a Rep
      Payee; and

•     Providing SSA annual Representative Payee Reports (RPR) accounting for how
      benefits were spent and invested.2



1
    42 U.S.C. §§ 405(j), 1383(a)(2).

2
    Id.; 20 C.F.R., part 404, subpart U and part 416, subpart F.


Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                            1
About 7 million individuals have Rep Payees—approximately 4.4 million are OASDI
beneficiaries, 2 million are SSI recipients, and 600,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they served as of November 2001.

                                                        Number             Number of
               Type of Rep Payee                           of              Individuals
                                                       Rep Payees            Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                   4,949,000            6,160,000
 Organizational Payees: State Institutions,
 Local Governments and Others                               44,150              759,000
 Organizational Payees: Fee-for-Service                       850                81,000
 TOTAL                                                   4,994,000            7,000,000


AHP (formerly A. Holly Patterson Geriatric Center) is a nonprofit, 889-bed skilled nursing
facility in Uniondale, New York. AHP opened in 1961 as a skilled nursing facility for the
elderly residents of Nassau County. AHP became a subsidiary of the Nassau Health Care
Corporation (NHCC) on September 29, 1999. NHCC—a public benefit corporation—was
created to acquire and operate the health facilities of Nassau County, New York. During
our audit period, AHP was the Rep Payee for 313 individuals who were receiving Social
Security benefits.

AHP provides residents receiving OASDI benefits $50 per month from their benefits for
their personal expenses. SSI recipients receive only $35 per month in payments from
SSA, and AHP provides this entire amount to the residents for their personal expenses.
The $35 payment comprises a $30 Federal payment and a $5 State supplement.
According to SSA’s procedures, SSI recipients who reside in AHP only receive $35 per
month for personal expenses since they are in a facility that is certified to receive Medicaid
payments. Medicaid per diem payments cover the SSI recipient’s housing and food costs.
SSI recipients receive an additional $20 per month from the New York Department of
Social Services for their personal expenses.

SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2000 through April 30, 2001. During this period, AHP
served as Rep Payee for 313 individuals. From this population, we selected a random
sample of 50 individuals for substantive testing. To accomplish our objectives, we:

•   Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
    pertaining to Rep Payees.




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                         2
•   Contacted SSA regional and field office staff to obtain background information about
    the Rep Payee’s performance.

•   Obtained from SSA’s Representative Payee System (RPS) and the Rep Payee a
    listing of individuals who were in the Rep Payee’s care and received SSA funds any
    time during May 1, 2000 through April 30, 2001.

•   Compared and reconciled the RPS and the Rep Payee’s listings to identify the
    population of SSA individuals who were in the Rep Payee’s care from May 1, 2000
    through April 30, 2001.

•   Reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.

•   Performed the following tests for each of the 50 individuals in our random sample.

    − Compared and reconciled benefit amounts paid according to the Rep Payee’s
      records to benefit amounts paid according to SSA’s records.

    − Reviewed the Rep Payee’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf. We also determined whether
      SSA was due a refund of any overpaid benefits.

    − Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Projected the results of our sample to the population (see Appendix A for details of our
    sampling methodology).

•   Interviewed three beneficiaries, personal guardians, or caregivers to determine whether
    their basic needs were being met.

•   Requested a sample of 30 RPRs from SSA to determine whether income and
    expenses were correctly reported.

•   Reviewed 28 RPRs provided by the Rep Payee to determine whether the Rep Payee
    properly reported to SSA how benefits were used.

•   Reviewed a sample of 10 Rep Payee applications (Form SSA-11) to evaluate the
    completeness and appropriateness of the information provided on the applications.

We performed our audit in Uniondale, New York, and the Office of the Inspector General’s
New York field office between August and December 2001. We conducted our audit in
accordance with generally accepted government auditing standards.



Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                           3
                                                     Results of Review
AHP generally (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for in
accordance with SSA’s policies and procedures. However, we identified a few areas
where AHP could improve its performance as a Rep Payee. Specifically, in five cases,
SSI recipients were overpaid $1,890 because AHP did not report to SSA that the
recipients had exceeded SSI resource limits. Based on the results of our statistical
analysis, we estimate that SSA overpaid AHP at least $3,901 for at least 13 beneficiaries
during our audit period. Also, in three cases, AHP reported incorrect expense information
on RPRs.

OVERSIGHT OF SSA BENEFITS

We determined that, for the 50 beneficiaries who received $284,769 in SSA funds during
our audit period, AHP accurately recorded benefits SSA paid it as well as expenses
incurred on behalf of the individuals under its care. Our tests concluded that AHP
maintained source documents for the sample items, which allowed us to determine the
expenses were reasonable and valid.


EXCESS RESOURCES

Under the SSI program, a recipient is limited to $2,000 in resources to remain eligible for
payment. If a recipient exceeds this resource limit, SSA suspends his or her payments.
Such payments resume when the recipient’s resources fall below the limit. The Rep Payee
must notify SSA (1) of any event that affects the recipient’s entitlement to benefits and (2) if
a recipient’s resources exceed $2,000 in any month.

During our audit period, 5 of the 50 cases we reviewed had conserved funds over the
$2,000 SSI resource limit. As a result, these individuals received $1,890 in overpayments
from May 1, 2000 through April 30, 2001. The following table provides detailed information
for our sample cases.




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                           4
                                                                  Total SSA
                 Cases             SSI             OASDI           Funds           Cases   Amount
                Reviewed        Payments          Benefits          Paid          Overpaid Overpaid
SSI Only             14              $5,530                  0        $5,530           5            $1,890
OASDI                34                     0      $277,327         277,327            0                0
Only
Concurrent            1                 210             1,702           1,912          0                0
No SSA                1                     0                0               0         0                0
Payments3
Total                50              $5,740        $279,029        $284,769            5            $1,890

Of the five cases overpaid, three individuals’ conserved fund balances exceeded $2,000
for the 12-month audit period; while two only had excess balances for a portion of our audit
period. For example, the balance for one individual ranged from $3,553 to $4,202. As a
result, the individual was ineligible for SSI payments. AHP did not report the excess
resources to SSA and therefore received $420 in SSI payments for which the individual
was not eligible. AHP agreed with our findings and informed us that corrective actions had
been or would be taken in all five cases.

ACCURACY OF REP PAYEE REPORTS

We examined 28 RPRs obtained from AHP and found that most were accurate with regard
to accounting for benefits. However, three of the reports incorrectly reported amounts as
spent for the beneficiaries’ food and housing. Rep Payees are required to classify
expenditures on the RPRs based on how the funds were spent. For the three cases, funds
spent for personal items were classified as having been spent for food and housing. All
three RPRs were for SSI recipients. Since SSI recipients receive only $35 per month in
benefits, the entire amount is placed in an account for personal expenses. Since Medicaid
paid all food and housing costs for all three cases, none of the SSI payments should have
been reported on the RPRs as being spent on food and housing.

We requested 30 RPRs from SSA, but SSA could not locate all of the RPRs we requested.
Therefore, we were unable to determine whether AHP actually reported to SSA how
benefits were accounted for in all cases. (See the Other Matters section of this report for a
further discussion on RPRs.)




3
 This case did not receive Social Security benefits during our audit period but received Veterans
Administration benefits only.


Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                                     5
                                                    Conclusions and
                                                   Recommendations
Generally, the Rep Payee met its responsibilities. However, we found a few areas where
AHP could improve its performance as a Rep Payee.

We recommend that SSA:

1. Ensure the Rep Payee reviews all SSI cases with conserved fund balances over
   $2,000, quantifies the overpayments, and returns the overpaid funds to SSA.

2. Re-emphasize procedures with the Rep Payee for notifying SSA when events occur
   that affect the eligibility of individuals in its care.

3. Clarify procedures with the Rep Payee for preparing the RPRs.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. Specifically, SSA
has initiated a training process with the staff at AHP regarding timely reporting of SSI
events, appropriate maintenance of SSI accounts and accurate completion of RPRs. (See
Appendix B for SSA’s comments.)

REP PAYEE COMMENTS

In response to our draft report, the Rep Payee reported that it strengthened its procedures
and will be working with SSA to improve its performance as a Rep Payee. (See
Appendix C for the Rep Payee’s comments.)




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                          6
                                                               Other Matters
SSA’s RETRIEVAL of RPRs

Rep Payees are responsible for reporting how beneficiaries’ payments are used by
completing RPRs. Each year, the Rep Payee is required to submit these RPRs to SSA.
To determine whether the Rep Payee properly completed and submitted RPRs, we
requested the most recently completed RPRs from SSA for 30 of the Rep Payee’s
beneficiaries. SSA provided only 16 of the RPRs, while AHP provided 28 of the RPRs.
Because SSA did not provide all the RPRs requested, we could not independently confirm
the Rep Payee met its reporting responsibilities. Also, for the 14 RPRs SSA did not
provide, we could not determine whether the Rep Payee properly submitted the reports. In
addition, we were unable to determine whether the reason some RPRs were not provided
was because they were unable to be located or because they were never submitted.




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                   7
                                            Appendices




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                                                                   Appendix A
Sampling Methodology and Results
To complete our objective, we obtained a list from A. Holly Patterson Extended Care
Facility (AHP) of all individuals for whom AHP was serving as a representative payee at
any time between May 1, 2000 and April 30, 2001. From this list of 313 beneficiaries, we
selected a random sample of 50 cases for detailed review. The results of our review of the
sample cases are shown in the table below.




                          Sample Results and Projections

            Population size                                                        313
            Sample size                                                             50
                                     Attribute Projection
            Sampled cases overpaid                                                       5
            Projection of cases overpaid                                                31
            Projection lower limit                                                      13
            Projection upper limit                                                      60
                                     Variable Projection
            Sample Results – Overpayments                                      $1,890
            Projection – Overpayments                                         $11,831
            Projection lower limit                                             $3,901
            Projection upper limit                                            $19,762
            Note: All projections were calculated at the 90-percent confidence level.




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                                                       Appendix B
Agency Comments




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                             SOCIAL SECURITY
MEMORANDUM


Date:      June 14, 2002                                                                   S2D2-1



To:        Assistant Inspector General for Audit


From:      Regional Commissioner, N.Y.

Subject:   Financial- Related Audit of A. Holly Patterson Extended Care Center (A-02-02-12034) - REPLY




           This is in response to the draft report on the financial audit conducted by your staff at the A. Holly
           Patterson Extended Care Center, in Uniondale, New York.

           The information contained in the report is valuable in that it provides insight into how a financial review is
           conducted by OIG Audit. As you know, SSA has the responsibility for monitoring the performance of
           organizational representative payees, fee-for-service payees and certain individual payees receiving
           benefits on behalf of others. It is extremely helpful to gain the perspective of an objective audit.

           The report offered the three recommendations below where the facility could improve its performance
           as a representative payee. Our comments follow.

           1. Ensure the payee reviews all SSI cases with conserved fund balances over $2,000, quantifies the
              overpayments, and returns the overpaid funds to SSA.
           2. Re-emphasize procedures with the payee for notifying SSA when events occur that affect        the
              eligibility of individuals in its care.
           3. Clarify procedures with the payee for preparing Representative Payee Reports.

           We agree that each of these items must be addressed. The District Manager of our Freeport office has
           initiated a training process with the staff at A. Holly Patterson that should lead to timely reporting of SSI
           events, appropriate maintenance of SSI accounts and accurate completion of the Representative Payee
           Accounting Reports. She has established a special liaison in her office to oversee this process and to
           ensure lines of communication are open. This is particularly important because a new administrator of



           Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                                     B-2
the facility has been appointed and the responsibility of their SSA representative payee accounts
reassigned to a new individual.

Your memo stated that the payee has also been asked to provide comments on the report. We would
appreciate receiving a copy of their comments.

If your staff should have any questions, please have them contact Val Ryan of the Program Operations
Center, at (212) 264-8354.




                                                /s/
                                        Beatrice M. Disman


CC: AC, OPSOS
CC: AC, OPB




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)                                B-3
                                                                       Appendix C
Rep Payee’s Comments




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                                                                         Appendix D
OIG Contacts and Staff Acknowledgments
OIG CONTACTS

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Tim Nee, Deputy Director, (212) 264-5295


ACKNOWLEDGMENTS

In addition to the persons named above:

   Robert Blake, Senior Auditor

   Arthur Treglia, Senior Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or contact
the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375. Refer to
Common Identification Number A-02-02-12034.




Financial-Related Audit of AHP – A Rep Payee for SSA (A-02-02-12034)
                              DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                              1
Management Analysis and Audit Program Support Staff, OFAM                   10
Inspector General                                                            1
Assistant Inspector General for Investigations                               1
Assistant Inspector General for Executive Operations                         3
Assistant Inspector General for Audit                                        1
Deputy Assistant Inspector General for Audit                                 1
 Director, Data Analysis and Technology Audit Division                       1
 Director, Financial Audit Division                                          1
 Director, Western Audit Division                                            1
 Director, Southern Audit Division                                           1
 Director, Northern Audit Division                                           1
 Director, General Management Audit Division                                 1
Issue Area Team Leaders                                                     25
Income Maintenance Branch, Office of Management and Budget                   1
Chairman, Committee on Ways and Means                                        1
Ranking Minority Member, Committee on Ways and Means                         1
Chief of Staff, Committee on Ways and Means                                  1
Chairman, Subcommittee on Social Security                                    2
Ranking Minority Member, Subcommittee on Social Security                     1
Majority Staff Director, Subcommittee on Social Security                     2
Minority Staff Director, Subcommittee on Social Security                     2
Chairman, Subcommittee on Human Resources                                    1
Ranking Minority Member, Subcommittee on Human Resources                     1
Chairman, Committee on Budget, House of Representatives                      1
Ranking Minority Member, Committee on Budget, House of Representatives       1
Chairman, Committee on Government Reform and Oversight                       1
Ranking Minority Member, Committee on Government Reform and Oversight        1
Chairman, Committee on Governmental Affairs                                  1
Ranking Minority Member, Committee on Governmental Affairs                   1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                   1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                         1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1
Chairman, Committee on Appropriations, U.S. Senate                                1
Ranking Minority Member, Committee on Appropriations, U.S. Senate                 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                   1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                      1
Chairman, Committee on Finance                                                    1
Ranking Minority Member, Committee on Finance                                     1
Chairman, Subcommittee on Social Security and Family Policy                       1
Ranking Minority Member, Subcommittee on Social Security and Family Policy        1
Chairman, Senate Special Committee on Aging                                       1
Ranking Minority Member, Senate Special Committee on Aging                        1
Vice Chairman, Subcommittee on Government Management Information
 and Technology                                                                   1
President, National Council of Social Security Management Associations,
 Incorporated                                                                     1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                     1
Social Security Advisory Board                                                    1
AFGE General Committee                                                            9
President, Federal Managers Association                                           1
Regional Public Affairs Officer                                                   1
A. Holly Patterson Extended Care Facility                                         1


Total                                                                           98
                    Overview of the Office of the Inspector General


                                             Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief Financial
Officers Act of 1990, assess whether SSA’s financial statements fairly present the Agency’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs. OA also conducts short-term management and program evaluations
focused on issues of concern to SSA, Congress, and the general public. Evaluations often focus on
identifying and recommending ways to prevent and minimize program fraud and inefficiency.

                                   Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs. OEO
supports the OIG components by providing information resources management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this Office coordinates and is responsible for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. The quality assurance division performs internal reviews to
ensure that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency. This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and Congress,
as well as other entities.

                                        Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement of SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, physicians, interpreters, representative payees, third parties, and by SSA
employees in the performance of their duties. OI also conducts joint investigations with other Federal,
State, and local law enforcement agencies.

                                  Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General on
various matters, including: 1) statutes, regulations, legislation, and policy directives governing the
administration of SSA’s programs; 2) investigative procedures and techniques; and 3) legal implications
and conclusions to be drawn from audit and investigative material produced by the OIG. The Counsel’s
office also administers the civil monetary penalty program.
